No. 20-534
In the Supreme Court of the United
__________________

States

THE EPISCOPAL CHURCH, ET AL.,
Petitioners,
v.
THE EPISCOPAL DIOCESE OF FORT WORTH, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the Supreme
Court of Texas

__________________
BRIEF OF THE GREEK ORTHODOX
ARCHDIOCESE OF AMERICA AS AMICUS
CURIAE IN SUPPORT OF THE EPISCOPAL
CHURCH’S PETITION FOR A WRIT OF
CERTIORARI
__________________
JOHN ZAVITSANOS
Counsel of Record
AHMAD, ZAVITSANOS, ANAIPAKOS,
ALAVI & MENSING P.C.
1221 McKinney Street, Suite 2500
Houston, Texas 77010
(713) 600-4901
jzavitsanos@azalaw.com
Counsel for Amicus Curiae

November 18, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
INTEREST OF THE AMICUS . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

THE SO-CALLED NEUTRAL-PRINCIPLES
APPROACH IS INCONSISTENT WITH
THE FIRST AMENDMENT, AND THE
COURT SHOULD GRANT CERTIORARI TO
OVERTURN THE FAILED EXPERIMENT
OF JONES. . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
a. Any Application of the So-Called NeutralPrinciples Approach Will Interfere with
the Greek Orthodox Church’s Free
Exercise Rights and Entangle the Courts
in Its Internal Affairs Because the Greek
Orthodox Church Treats Church Property
Ownership as Inherently Ecclesiastical . . 7
b. Jones Failed to Fulfill Its Promises and
Has Resulted in the Harms the
Dissenting Justices Predicted . . . . . . . . . 11
c. A Deference Regime for Hierarchical
Churches Is the Only Way to Protect Free
Exercise and Avoid Entanglement . . . . . 14

ii
II.

T HE
COURT
SHO U L D
GRAN T
CERTIORARI TO CLARIFY THAT THE
FREE EXERCISE CLAUSE DOES NOT
TOLERATE IMPOSITION OF ANY MORE
THAN A MINIMAL BURDEN ON A
HIERARCHICAL CHURCH TO RECITE AN
EXPRESS TRUST IN FAVOR OF ITS
HIERARCHY . . . . . . . . . . . . . . . . . . . . . . . . . 16
a. Throughout Its History, the Greek
Orthodox Church Has Been Organized
Hierarchically and All Property Disputes
Have Been Resolved Internally by the
Church Hierarchy . . . . . . . . . . . . . . . . . . 17
b. The Greek Orthodox Church Has Made
Clear Its Intent that Any Church
Property Must Remain in the Hands of
Factions the Hierarchy Determines to be
Loyal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
c. The Texas Supreme Court Should Not Be
Allowed to Intrude on Internal
Governance Matters in Hierarchical
Churches Simply Because Property Is
Implicated. . . . . . . . . . . . . . . . . . . . . . . . . 22

III.

THIS
COURT
SHOULD
GRANT
CERTIORARI TO HOLD THAT NEUTRAL
PRINCIPLES CANNOT BE APPLIED
RETROACTIVELY WITHOUT VIOLATING
THE FREE EXERCISE CLAUSE OF THE
FIRST AMENDMENT . . . . . . . . . . . . . . . . . 24

iii
a. The Reasoning of Jones Makes Clear That
Retroactive Application of Neutral
Principles Is Unconstitutional. . . . . . . . . 24
b. The Texas Supreme Court Would Require
That Hierarchical Churches Either Risk
Losing Their Property Or Alter Their
Internal Approach to Ecclesiastical
Governance. . . . . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iv
TABLE OF AUTHORITIES
Cases
All Saints Parish Waccamaw v. Protestant
Episcopal Church in Diocese of South Carolina,
685 S.E.2d 163 (S.C. 2009) . . . . . . . . . . . . . . . . . 22
Berthiaume v. McCormack,
891 A.2d 539 (N.H. 2006) . . . . . . . . . . . . . . . . . . 22
Brown v. Clark,
116 S.W. 360 (Tex. 1909) . . . . . . . . . . . . . . . . . . 25
Episcopal Diocese of Fort Worth v. Episcopal
Church, 602 S.W.3d 417 (Tex. 2020) . . . . . . . . . 14
Green v. Westgate Apostolic Church,
808 S.W.2d 547 (Tex. App.—Austin 1991). . . . . 25
Hosanna-Tabor Evangelical Lutheran Church and
School v. Equal Employment Opportunity
Commission et al., 132 U.S. 694 (2012) . . . . . . 5, 9
Jones v. Wolf,
443 U.S. 595 (1979). . . . . . . . . . . . . . . . . . . passim
Kedroff v. St. Nicholas Cathedral of the Russian
Orthodox Church in N. America,
344 U.S. 94 (1952). . . . . . . . . . . . . . . . . . . . . . 9, 14
Presbytery of Ohio Valley v. OPC, Inc.,
973 N.E.2d 1099 (Ind. 2012), cert. denied,
133 S. Ct. 2022 (2013). . . . . . . . . . . . . . . . . . . . . 22
Rector, Wardens, Vestrymen of Christ Church v.
Bishop of Episcopal Diocese,
718 S.E.2d 237 (Ga. 2011) . . . . . . . . . . . . . . . . . 23

v
Watson v. Jones,
80 U.S. (13 Wall.) 679 (1872) . . . . . . . . . 11, 15, 16
Other Authorities
Nathan Clay Belzer, Deference in the Judicial
Resolution of Intrachurch Disputes: The Lesser of
Two Constitutional Evils, 11 St. Thomas L. Rev.
109 (1998) . . . . . . . . . . . . . . . . . . . . . . . . 13, 14, 15
Charter of the Greek Orthodox Archdiocese of
America (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Cyprian of Carthage, CHURCH FATHERS: Epistle
68, https://www.newadvent.org/fathers/050668.
htm . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Rev. Thomas Fitzgerald, House of God, The Greek
Archdiocese of America, http://www.goarch.org/
ourfaith/ourfaith7100 . . . . . . . . . . . . . . . . . . . . . 10
Aristeides Papadakis, Ph.D., History of the
Orthodox Church, The Greek Orthodox
Archdiocese of America, http://www.goarch.org/
ourfaith/ourfaith7053 . . . . . . . . . . . . . . . . . . . . . 18
Regulations of the Greek Orthodox Archdiocese of
America (2007) . . . . . . . . . . . . . . . . 2, 8, 19, 20, 21
Brian Schmalzbach, Note, Confusion and Coercion
in Church Property Litigation, 96 Va. L. Rev.
443 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
The Greek Orthodox Archdiocese of America, About
The Archdiocese, http://www.goarch.org/
archdiocese/about . . . . . . . . . . . . . . . . . . . . . . . . 18

vi
The Greek Orthodox Archdiocese of America,
Service of the Consecration of a Church,
http://www.goarch.org/chapel/liturgical_texts/c
onsecrate_church . . . . . . . . . . . . . . . . . . . . . . . . 10

1
INTEREST OF THE AMICUS1
The Greek Orthodox Archdiocese of America (“The
Greek Orthodox Church”) files this amicus curiae brief
in support of The Episcopal Church’s Petition for a
Writ of Certiorari at the United States Supreme Court.
This Court should grant a writ of certiorari in this case
to underscore that the Free Exercise Clause protects
the ability of hierarchical churches to resolve their own
internal property disputes without fear that courts will
second guess their ecclesiastical determinations.
The Greek Orthodox Church joins the Episcopal
Church as an amicus because the outcome of this case
affects the Greek Orthodox Church’s freedom promised
by the First Amendment to arrange its internal affairs
as it wishes without court interference. While the
Greek Orthodox Church and the Episcopal Church
differ in significant and well-known ways, including in
their structure and doctrine, they share a common
concern: by interpreting this Court’s so-called neutralprinciples approach to presuppose congregational
autonomy, well-meaning courts are interfering with
hierarchical churches’ ability to arrange their own
internal affairs.

1

Pursuant to Supreme Court Rule 37, counsel for amicus curiae
represent that they authored this brief in its entirety and that
none of the parties or their counsel, nor any other person or entity
other than amicus or their counsel, made a monetary contribution
intended to fund the preparation or submission of this brief.
Counsel for petitioner and respondent have consented to amicus
curiae’s request for consent to the filing of this brief, and both
parties received timely notice of amicus curiae’s intent to file this
brief.

2
Since its beginnings, the Greek Orthodox Church
has been a hierarchical church. Accordingly, it holds
all church property in a manner that reflects this
longstanding hierarchy. All church property –
regardless of which church entity it is held by – is held
expressly for carrying out the faith and purpose of the
Greek Orthodox Church. See Regulations of the Greek
Orthodox Archdiocese of America (“Regulations”), Art.
16 § 1 (2007). Only the church hierarchy is vested with
the authority to determine if a parish is carrying out
the faith and purpose of the Greek Orthodox Church,
so any property dispute is inherently entwined with
ecclesiastical matters.
Here, the Texas Supreme Court’s decision threatens
the Greek Orthodox Church’s free exercise rights in
two ways. First, the rule fashioned by the Texas
Supreme Court directly intrudes on churches’ right to
structure themselves as they desire because it
presupposes that churches are organized
congregationally, even for hierarchical churches whose
ecclesiology simply requires deference to church
leadership. Second, the Texas Supreme Court’s rule
requires that courts divine the “secular intent” of
ecclesiastical documents and appropriate the role of the
church hierarchy in adjudicating matters that are
interwoven with ecclesiastical determinations solely
because a dispute affects property.
This Court should grant certiorari to provide clear
guidance about what the First Amendment requires.
Moreover, after thirty years of courts’ failed attempts
to apply the so-called neutral-principles approach, it is
time that the Court reconsider whether the First

3
Amendment can tolerate an approach that sows
confusion and repeatedly draws courts into
ecclesiastical matters. For these reasons, the Greek
Orthodox Church urges the Supreme Court to grant the
writ of certiorari in this case and overturn the decision
below.
SUMMARY OF THE ARGUMENT
In this case, the Texas Supreme Court handed over
$100 million worth of Episcopal Church property to a
breakaway faction in contravention of a century of its
own jurisprudence deferring to hierarchical church
authorities’ decisions regarding church property
ownership. Left unchecked, this decision could leave
the property of hierarchical churches across the
country unprotected by giving other states the green
light to apply new rules to church property
arrangements made years ago under a longstanding
deference regime. Moreover, this decision goes even
further by rejecting express trust provisions formed
according to the Court’s new guidance in Jones v. Wolf.
443 U.S. 595 (1979).
The Texas Supreme Court—like other state courts
across the country—thus arrogated to the judiciary an
unwarranted role in disputes that parties agreed would
be decided by religious authorities, simply because
those disputes affect property. The Texas Supreme
Court’s newly adopted approach requires that courts
place themselves squarely in the midst of intra-church
disputes to surmise the supposed secular purposes of
inherently ecclesiastical documents created for church
self-government. This rule also threatens the free
exercise rights of hierarchical churches because it

4
presumes that church authority is vested at the level of
the local congregation even when a church has
organized itself in a way that defers to a religious
authority. Such judicial commandeering of religious
bodies was never this Court’s intent in Jones.
This case highlights the myriad problems stemming
from this Court’s holding in Jones that it could be
constitutionally permissible for courts to resolve church
property disputes in hierarchical churches by applying
so-called neutral principles of law rather than deferring
to religious authorities, which had previously been the
only constitutionally permissible approach. Id. Over
the last thirty years, lower courts have been struggling
to understand what Jones means and how to apply it.
Brian Schmalzbach, Note, Confusion and Coercion in
Church Property Litigation, 96 Va. L. Rev. 443, 450-451
(2010). Jones purported to allow courts to apply
neutral principles to church property disputes because
hierarchical churches opting out of default property law
could with “minimal burden” make clear how their
property should be treated if a dispute arose. 443 U.S.
at 606. Whereas this approach had promised to free
courts from involvement in intra-church ecclesiastical
affairs, in practice it has caused deeper entanglement
because church property issues are so often intertwined
with inherently ecclesiastical matters that are as
central to the church’s mission as the hiring and firing
of its clergy. In the Greek Orthodox Church, because
church property is bound up with its religious purposes
and property disputes are considered inherently
ecclesiastical matters, such disputes cannot be resolved
under so-called neutral principles without resulting in
entanglement. Whereas the Greek Orthodox Church

5
conceives of its sacred property in religious terms, the
neutral-principles approach would require that courts
nonetheless craft a purely secular interpretation that
was never intended.
This Brief offers three compelling reasons why this
Court should grant the writ of certiorari and use this
case as an opportunity to take a second look at its
Jones decision.
First, this Court should grant certiorari to reevaluate the wisdom of the neutral-principles
approach, which repeatedly has entangled civil courts
in ecclesiastical matters, requiring courts to determine
who represents the “true” church and encouraging
courts to interpret ecclesiastical documents about
church self-governance through a secular lens when the
church never intended for such a lens to be applied.
Drawing a bright line respecting churches’ internal
governance mechanisms, as this Court did in HosannaTabor Evangelical Lutheran Church and School v.
Equal Employment Opportunity Commission et al., 132
U.S. 694, 706 (2012), is the simplest way to avoid
encroaching on hierarchical churches’ free exercise
rights and to ensure consistency and clarity in the
adjudication of church property disputes. This Court
can prevent further, otherwise inevitable constitutional
harms by overturning Jones and returning to its
deference regime.
Second, short of overruling Jones, this Court should
offer lower courts much-needed guidance on what the
“minimal burden” described in Jones entails. This
Court can ensure that lower courts no longer interpret
Jones to require that hierarchical churches meet a

6
substantial burden to ensure that their property
disputes are decided by religious authorities.
Third, this Court should grant certiorari to hold
that courts cannot retroactively apply a newly-adopted
neutral-principles approach as did the Texas Supreme
Court.
This Court largely premised the
constitutionality of the neutral-principles approach at
issue in Jones on the existence of an escape hatch for
hierarchical churches by which they simply could
indicate that the church hierarchy’s determinations
would control. In fact, although the parties never
raised the issue in Jones, the Court sua sponte
suggested that retroactive application of neutral
principles would violate the Free Exercise Clause. See
443 U.S. at 606 n.4. This Court should take this
opportunity to expressly rule what it suggested in
Jones: a court cannot constitutionally apply the
neutral-principles approach when it has not clearly
enunciated its intent to do so prior to a church property
dispute.
ARGUMENT
I.

THE
SO-CALLED
NEUTRALPRINCIPLES
APPROACH IS
INCONSISTENT WITH THE FIRST
AMENDMENT, AND THE COURT
SHOULD GRANT CERTIORARI TO
OVERTURN
THE
FAILED
EXPERIMENT OF JONES.

The Court should take this opportunity to address
the viability of Jones v. Wolf, which at best has caused
widespread confusion and at worst has invited courts

7
to wade into inherently ecclesiastical disputes, as the
Texas Supreme Court has done here. It is often not
possible to treat church property disputes as though
they involve secular subject matter as the majority in
Jones envisioned. In the Greek Orthodox Church,
property disputes are indistinct from other internal,
ecclesiastical disputes so any application of “neutral
principles” results in entanglement. The only way to
prevent the threat of courts’ continued entanglement in
such ecclesiastical matters is for this Court to return to
the deference regime that steadfastly respected
churches’ free exercise rights for over one hundred
years.
a. Any Application of the So-Called
Neutral-Principles Approach Will
Interfere with the Greek Orthodox
Church’s Free Exercise Rights and
Entangle the Courts in Its Internal
Affairs Because the Greek Orthodox
Church Treats Church Property
Ownership
as
Inherently
Ecclesiastical.
The neutral-principles approach presumes that
courts can resolve intra-church property disputes
without deference to church authorities, even for
hierarchical churches, because such matters can be
analyzed in “purely secular terms” without reference to
“religious precepts.” Jones, 443 U.S. at 604. But for
the Greek Orthodox Church, as for other hierarchical
denominations, no such distinction exists between
sacred and secular matters in the life of the church.
Because the Greek Orthodox Church’s governing

8
documents are “drawn in terms of religious precepts,”
id. at 612 (Powell, J., dissenting), it is not possible to
divine the Church’s secular intent with regard to
property that is somehow apart from its religious
intent.
The Greek Orthodox Church conceives of its
Charter and Regulations as religious law, leaving no
room for secular interpretations. In his introduction to
the Regulations, Archbishop of America and Exarch of
the Ecumenical Patriarchate Demetrios emphasized
that the Regulations were created to “avoid any
disorder, confusion, disorganization, and turmoil; for
the God of Christians is a God of order and peace, not
a God of disorder, confusion, and turmoil.”
Regulations, Prot. No. 33/05 at iv. It was “exactly for
the advancement of order, decency and peace within
the parishes” that the Regulations were published. Id.
at v. Thus, the Greek Orthodox Church understands
its Regulations to be religious doctrine that allows it to
practice its faith by ensuring an orderly internal
resolution of all matters that arise.
The Regulations that specifically govern church
property also contain explicitly religious language. For
example, the Regulations require that all church
property “shall be held and used by the Parish to carry
out the purposes of the Orthodox Christian Faith as
defined in Article 15.” Regulations, Art. 16 § 1.
Moreover, the Church edifice and other Parish
Property “shall be used in accordance with the Charter
to serve the religious, educational, cultural, and
philanthropic ministries of the Parish.” Id. Thus, the
resolution of intra-church property ownership disputes

9
within the Greek Orthodox Church turns on who is
using the property in accordance with the Greek
Orthodox faith, an inherently religious question that
civil courts are incompetent to answer. As this Court
recognized in Kedroff, “[e]ven in those cases when the
property right follows as an incident from the decisions
of the church custom or law on ecclesiastical issues, the
church rule controls.” Kedroff v. St. Nicholas Cathedral
of the Russian Orthodox Church in N. America, 344
U.S. 94, 120-121 (1952).
The Greek Orthodox Church urges this Court to
consider the inherently religious nature of church
property in analyzing whether civil courts should be
allowed to usurp determinations by a hierarchical
church’s governing authorities about church property
disputes, especially in light of its unanimous decision
in Hosanna-Tabor. 132 S. Ct. 694. In Hosanna-Tabor,
this Court held that “the authority to select and control
who will minister the faithful—a matter ‘strictly
ecclesiastical,’ . . . –is the church’s alone.” Id. at 709.
Moreover, this Court explained that when society’s
“undoubtedly important” interest in the enforcement of
civil law, like employment discrimination statutes,
competes with religious organizations’ interest in
exercising their right to self-governance “the First
Amendment has struck the balance for us[] . . . [t]he
church must be free to choose those who will guide its
way.” Id. at 710. This is especially important in
international hierarchical churches in which religious
determinations are made by religious authorities
located outside of the United States social climate.
When the church’s religious and ecclesiastical interests
are competing with local social interests, First

10
Amendment protections must prevail to prohibit
government interference in the free exercise of religion.
Thus, because the First Amendment “gives special
solicitude to the rights of religious organizations,”
secular law must yield when it interferes with internal,
ecclesiastical matters. Id. at 706-07.
Similar to its selection of clergy, the Greek
Orthodox Church conceives of its ability to govern
church property as an integral part of its practice and
the expression of its faith. Yet Jones fundamentally
disregards the uniquely religious nature of church
property and the importance for a hierarchical church
to protect the use of these sacred places. For the Greek
Orthodox Church, a church is not just a building in
which its faithful worship, nor a building with a deed
and title that can be passed from one group of people to
another. Instead, it is a building uniquely designed to
facilitate worship in the Greek Orthodox tradition and
to reflect the tenets of the Greek Orthodox faith. Rev.
Thomas Fitzgerald, House of God, The Greek Orthodox
Archdiocese of America, http://www.goarch.org/ourfaith
/ourfaith7100. The worship space itself is usually
designed to be small to reflect the close community of
Greek Orthodox worshippers. Id. Moreover, the Greek
Orthodox Church teaches that when a church is
consecrated, God’s grace and the Holy Spirit transform
an ordinary building into a “House of God.” The Greek
Orthodox Archdiocese of America, Service of the
Consecration of a Church, http://www.goarch.org/chapel
/liturgical_texts/consecrate_church. As part of the
Consecration, relics of saints are sealed inside the Holy
Altar. Id. This sacred classification of the church is
rooted in the Church’s holy texts and scripture in

11
which Church fathers dating back to the third century
explain that although a “rebellious and arrogant
multitude of those who will not hear and obey may
depart, the Church does not depart from Christ,” and
the Church is “a people united to the priest, and the
flock that adheres to its pastor.” Cyprian of Carthage,
CHURCH FATHERS: Epistle 68, https://www.newad
vent.org/fathers/050668.htm.
Regardless of any
heresies, breakaway factions, or disagreements,
churches must still serve their mission as determined
by the hierarchs, and to do otherwise would be to
restrict the Church’s ability to comply with their own
doctrine and teachings. Thus, any intra-church
property dispute heard by the civil courts regarding the
Greek Orthodox Church necessarily will entangle the
court in doctrinal issues that go to the heart of the
Greek Orthodox faith because the brick and mortar
building is inseparable from the faith it represents.
This Court should take this opportunity to correct
the mistaken premise of Jones that church property
disputes can be resolved in an entirely secular manner.
To pretend otherwise simply encourages courts to
entangle themselves in church property disputes that
are bound up with doctrinal concerns.
b. Jones Failed to Fulfill Its Promises
and Has Resulted in the Harms the
Dissenting Justices Predicted.
Before Jones, the only constitutional approach to
church property disputes involving hierarchical
churches was to grant deference to the duly constituted
church authorities. Watson v. Jones, 80 U.S. (13 Wall.)
679 (1872). In Watson, this Court simply enforced the

12
determination of the hierarchical church’s relevant
governing body regarding whether a pro-slavery or
anti-slavery faction of a parish owned the property at
issue. 80 U.S. at 722-724. This Court refused to
second guess the church authorities’ determination
regarding which faction was loyal to the church and
thus entitled to the property. For over one hundred
years, courts deferred to hierarchical churches’
decisions regarding property ownership.
Then, in 1979, this Court offered an alternative:
rather than defer to a church’s governing body as a
matter of course, states could now apply “neutral”
principles of law to determine church property
ownership. Jones, 443 U.S. at 603-604. Jones
promised that the application of “neutral principles”
would “free civil courts completely from entanglement
in questions of religious doctrine, polity, and practice.”
Id. at 604. The majority saw this as a means for
ensuring that civil courts would not “resolv[e] church
property disputes on the basis of religious doctrine or
practice” in violation of the First Amendment. Id. at
602. For this reason, Jones commanded that if
resolving the property dispute would require the civil
court to resolve a “religious controversy,” then the court
must defer to the “authoritative ecclesiastical body.”
Id. at 604. The majority believed, however, that this
approach would be “completely secular in operation”
and would “obviate[] entirely the need for an analysis
or examination of ecclesiastical polity or doctrine in
settling church property disputes.” Id. at 603, 605.
At the time, the four dissenting justices warned that
“this new approach inevitably will increase the

13
involvement of civil courts in church controversies,”
and would “more likely . . . promote confusion than
understanding.” Id. at 611, 612 (Powell, J., dissenting).
Furthermore, the dissenters recognized that “indirect
interference by the civil courts with the resolution of
religious disputes within the church is no less
proscribed by the First Amendment than is the direct
decision of doctrine and practice.” Id. at 613. But the
majority believed that this new approach nonetheless
could be tolerated in situations in which no doctrinal
controversy was at issue because courts would simply
analyze the secular, legal aspects of church government
and property documents to determine whether a parish
or the hierarchical church owned parish property. Id.
at 603. The majority theorized that this approach
would not frustrate the free exercise of religion or
freedom of association because a church could indicate
in advance the desire that the faction loyal to the
hierarchical church would retain church property. Id.
at 606. As discussed below, however, in practice a
standard requiring an advance expression of intent has
turned out to be completely unworkable.
The last thirty years have only borne out the
concerns expressed by the dissent, undermining the
majority’s hope that the neutral-principles approach
would disentangle the courts from ecclesiastical
matters. Not only is the “secular” premise of this
approach questionable because it asks courts to glean
secular meaning from inherently ecclesiastical
documents, but the neutral-principles approach also
has produced wildly inconsistent case law. See Nathan
Clay Belzer, Deference in the Judicial Resolution of
Intrachurch Disputes: The Lesser of Two Constitutional

14
Evils, 11 St. Thomas L. Rev. 109, 130-135 (1998)
(cataloguing contradictory case law). The Jones
majority failed to realize that disposition of church
property often includes an inherently ecclesiastical
dimension that cannot be surgically excised. As a
result, time and again this approach has invited courts
to wrongfully interfere with hierarchical churches’
internal governance by making ecclesiastical
determinations of whether a breakaway faction is
affiliated with the hierarchical church, and even
initially going as far as to enjoin clergy from practicing
under their designated church. Episcopal Diocese of
Fort Worth v. Episcopal Church, 602 S.W.3d 417, 425
(Tex. 2020). This interference is encouraged by
improper interpretations of Jones even though the Free
Exercise Clause guarantees a spirit of freedom for
religious organizations, an independence from secular
control or manipulation, in short, power to decide for
themselves, free from state interference, matters of
church government as well as those of faith and
doctrine.” Kedroff, 344 U.S. at 154.
c. A Deference Regime for Hierarchical
Churches Is the Only Way to
Protect Free Exercise and Avoid
Entanglement.
In approving the neutral-principles approach, the
Jones majority decided for the first time to risk the
constitutional hazards of court-adjudication of church
property disputes. Jones’ hopeful view that the
“neutral principles” approach would be “completely
secular,” and would only use “objective, wellestablished concepts of trust and property law familiar

15
to lawyers and judges” has proven untenable. 443 U.S.
at 603.
Instead, application of the so-called neutralprinciples approach is fraught with constitutional
infirmity because it sanctions an ongoing invasion of
churches’ right to govern their internal affairs. The
constitutional harm that earlier precedent, like
Watson, recognized is tangible and harmful. 80 U.S.
(13 Wall.) 679 (1872). Hierarchical churches have lost
property that rightfully belonged to them, the ability of
churches to organize their affairs as they wish has been
compromised, and courts have indirectly interfered
with or decided ecclesiastical disputes. Belzer, 11 St.
Thomas L. Rev. at 131-35.
In contrast, Watson deference avoids all of these
problems and ensures that courts will not intrude into
ecclesiastical matters outside their competence. 80
U.S. (13 Wall.) 679. The deference approach respects
hierarchical churches’ determinations and allows
disputes to be resolved within the hierarchical church
structure that parties originally agreed would govern
the dispute. Id. at 727. As Watson explained, “[a]ll
who unite themselves to such a body do so with an
implied consent to this government, and are bound to
submit to it,” and the decisions of that hierarchical
church structure “should be binding in all cases of
ecclesiastical cognizance, subject only to appeals as the
organism itself provides for.” Id. at 729.
Respectfully, Jones has not fulfilled the majority’s
promises.
It has proven complicated to apply,
repeatedly has embroiled the courts in ecclesiastical
controversies, and trampled on churches’ ability to

16
arrange their own internal affairs, just as the dissent
warned. Though it may not have been apparent at the
time Jones was decided, it is now abundantly clear that
this experiment has failed abysmally because it
encourages courts to glean supposed secular meaning
from inherently religious documents about matters
that cannot be neatly separated from doctrine or
ecclesiastical governance.
II.

THE
COURT
SHOULD
GRANT
CERTIORARI TO CLARIFY THAT THE
FREE EXERCISE CLAUSE DOES NOT
TOLERATE IMPOSITION OF ANY
MORE THAN A MINIMAL BURDEN ON
A HIERARCHICAL CHURCH TO
RECITE AN EXPRESS TRUST IN
FAVOR OF ITS HIERARCHY.

Short of overruling Jones, this Court should at a
minimum act to ensure that courts do not place
substantial, unconstitutional burdens on hierarchical
churches to protect their property, as the Texas
Supreme Court has done here. In a well-intentioned
attempt to further extricate the courts from
entanglement with religious affairs, this Court issued
a sharply divided decision in Jones, which offered an
alternative to the Watson deference policy. This newlypermitted approach was premised on churches having
the opportunity to arrange their affairs before a dispute
arose. 443 U.S. at 606. The Court made explicit that
its approval of the so-called neutral-principles
approach would involve a “minimal burden” on
churches because all that would be required for a
church wishing to indicate that the faction “loyal to the

17
hierarchical church [would] retain the property” would
be to express this in “some legally cognizable way.” Id.
For example, the church could “modify the deeds or the
corporate charter to include a right of reversion or trust
in favor of the general church” or, alternatively, “the
constitution of the general church [could] be made to
recite an express trust in favor of the denominational
church.” Id. The majority reasoned that the First
Amendment would not be violated because the burden
of enshrining the denomination’s intent by adding trust
language to its constitution would be “minimal.” Id.
Here, the Texas Supreme Court’s rule ignores the
fundamental premise of Jones that the neutralprinciples approach could only be applied if it allowed
churches to indicate how they wish property disputes
to be decided with minimal burden, instead imposing
an unconstitutional encumbrance on churches’ free
exercise rights by intruding on how they arrange their
internal affairs. That approach, and others like it
across the country, burden the Greek Orthodox Church
and other hierarchical churches far beyond anything
the Jones Court envisioned.
a. Throughout Its History, the Greek
Orthodox Church Has Been
Organized Hierarchically and All
Property Disputes Have Been
Resolved Internally by the Church
Hierarchy.
The Greek Orthodox Church has always been
organized hierarchically, subject to the authority of the
Ecumenical Patriarchate in Constantinople (modern
day Istanbul). Local hierarchies, including bishops,

18
priests, and deacons, developed to govern nascent
congregations once the founding itinerant Apostles left.
Aristeides Papadakis, History of the Orthodox Church,
The Greek Orthodox Archdiocese of America,
http://www.goarch.org/ourfaith/ourfaith7053. Although
the hierarchical structure of the Greek Orthodox
Church has become more complex since its origins,
authority over parishes has always been vested in the
church hierarchs.
The first Greek Orthodox faithful arrived in
America in 1768, establishing the colony of New
Smyrna south of St. Augustine, Florida. The Greek
Orthodox Archdiocese of America, About The
Archdiocese, http://www.goarch.org/archdiocese/about.
At that time, there was not yet a separate governing
church body in America through which the Ecumenical
Patriarchate in Constantinople exercised its authority.
Under the direction and leadership of Archbishops
Athenagoras, Michael, and Lakovos, the growing Greek
Orthodox communities in America became an
Archdiocese, established in 1921 as the governing body
of the Greek Orthodox Church in North and South
America under the supreme authority of the
Ecumenical Patriarchate in Constantinople. Id.
Today, the Greek Orthodox Archdiocese of America,
now incorporated in New York, governs 540 parishes,
800 priests, and an estimated 1 million members. Id.
The Archdiocese operates under a Charter from the
Ecumenical Patriarchate, which establishes the
responsibilities of the Archdiocese and governs its
relationship with the Ecumenical Patriarchate. See
Charter of the Greek Orthodox Archdiocese of America

19
(“Charter”) (2003). In accordance with the Charter, the
Archdiocese is divided into a Direct Archdiocesan
District and eight Metropolises, which are each
governed by a Metropolitan. Although separately
incorporated, as a condition of their affiliation with the
Greek Orthodox Church, the Metropolises must agree
to abide by the rules of the Archdiocese.
See
Regulations, Art. 9 § 2. The Eparchial Synod,
composed of the eight Metropolitans and the
Archbishop, promulgates Regulations, approved by the
Ecumenical Patriarchate, to govern the operation and
administration of the Archdiocese, the Metropolises,
and the parishes within them. See Charter, Art. 4, 22.
Parishes, like Metropolises, are separately incorporated
in the state in which they sit. See Regulations, Art. 21.
“Upon the assignment of a Priest by the respective
Hierarch, the Parish accepts and agrees to comply with
the Charter and Regulations of the Archdiocese.” See
Regulations, Art. 21 § 2.
The Greek Orthodox Church has an established, allencompassing ecclesiastical government for all internal
disputes that may arise. The Church’s mandatory
Regulations are designed to govern every conceivable
situation a parish may encounter.
Thus, the
Regulations govern both (a) matters that expressly
relate to doctrine, such as the determination of a
parishioner’s good standing, which is based on whether
he or she has followed the Church’s rites and met
religious, moral, and social duties, and (b) internal
affairs that are not expressly doctrinal, such as
establishment of a board of financial auditors for each
parish. Art. 18 § 1; Art. 33. Moreover, each parish
agrees to resolve conflicts according to the Archdiocese

20
Dispute Resolution Procedures, which vest authority
for dispute resolution in the relevant church hierarch.
See Regulations, Addendum B. The Dispute Resolution
Procedures allow a hierarch in his discretion to convene
a Spiritual Court of the First Instance to resolve
disputes, and appeals from these courts proceed to the
Spiritual Court of the Second Instance.
See
Regulations, Addendum B-5; Charter, Art. 9. As the
Charter and Regulations demonstrate, the Greek
Orthodox Church understands all disputes that touch
on its internal affairs to be ecclesiastical matters that
should be resolved within these comprehensive church
structures.
b. The Greek Orthodox Church Has
Made Clear Its Intent that Any
Church Property Must Remain in the
Hands of Factions the Hierarchy
Determines to be Loyal.
In Jones, this Court identified at least two possible
options through which churches could ensure that
factions loyal to the denominational church would
retain church property under a neutral-principles
approach: an express trust or a right of reversion. 443
U.S. at 606. The Greek Orthodox Church has included
both an express trust and a right of reversion in favor
of the Archdiocese in its Regulations to comply with
Jones’ requirement and ensure that loyal factions
retain church property. See Regulations, Art. 16 §§ 1,
6.
Specifically, the Regulations recite an express trust,
which is deemed incorporated into all parishes’ bylaws, that requires that “[p]arish property shall be held

21
and used by the Parish to carry out the purposes of the
Orthodox Christian Faith as defined in Article 15.”
Regulations, Art. 16 § 1. In turn, Article 15 of the
Regulations makes clear that the determination of
these purposes is the province of the church hierarchy,
which retains the authority to enforce its
determinations even by “revok[ing] the ecclesiastical
charter of a Parish.” Id., Art. 15 § 6. Thus, while the
property is held in the parish’s corporate name, a
parish cannot buy, sell, mortgage, or develop its
property without the approval of the respective Bishop
or Metropolitan. Id., Art. 16 § 3. These provisions
demonstrate that church property is held in trust for
the Greek Orthodox Church.
The Regulations also recite a right of reversion in
favor of the Archdiocese in the event the Archbishop
declares a parish in canonical disorder due to heresy,
schism, or defection from the Archdiocese: “In the
event that the Archbishop . . . determines that the
Parish cannot be restored to canonical order, the title
to properties shall vest in the Archdiocese.” Id., Art.
16, § 6. The Regulations further provide that if title
cannot vest in the Archdiocese, then “title shall vest in
an ecclesiastical corporation controlled by the group of
parishioners that the Archdiocese determines remains
loyal to it.” Id. Thus, any decision about ownership of
church property is inherently a church polity decision
about who are the true Greek Orthodox parishioners,
an issue about which the courts are incompetent.
These provisions coupled with the Greek Orthodox
Church’s long history of hierarchical governance make
explicit that the Greek Orthodox Church wishes for its

22
property disputes to be resolved internally by its
hierarchy.
c. The Texas Supreme Court Should
Not Be Allowed to Intrude on
Internal Governance Matters in
Hierarchical Churches Simply
Because Property Is Implicated.
The Texas Supreme Court has read Jones and its
neutral-principles approach to require that courts flout
churches’ internal governance in favor of secular law
simply because a dispute touches property, even when
the matter is understood to be ecclesiastical. Thus,
even though the Greek Orthodox Church has made
clear in every way contemplated by Jones that church
property is held for the church and that property
disputes are inherently ecclesiastical matters to be
resolved by the church hierarchy, the Church’s clear
intent still may not be respected. Other state supreme
courts similarly have read Jones to require strict
compliance with state property law across jurisdictions,
notwithstanding the burden on churches to alter their
internal affairs and without regard to resulting
entanglement with ecclesiastical matters.
See
Presbytery of Ohio Valley v. OPC, Inc., 973 N.E.2d 1099
(Ind. 2012), cert. denied, 133 S. Ct. 2022 (2013); All
Saints Parish Waccamaw v. Protestant Episcopal
Church in Diocese of South Carolina, 685 S.E.2d 163,
166-167 (S.C. 2009); Berthiaume v. McCormack, 891
A.2d 539, 547 (N.H. 2006).
Furthermore, this reading of Jones would require
churches to structure their property holdings
differently in states with different property law. The

23
Greek Orthodox Church has parishes in 49 states.
Greek Orthodox Archdiocese of America Parish
Directory, http://www.goarch.org/parishes/. Thus, to
require strict compliance with property law in every
state would amount to an “immense” and
unconstitutional burden far beyond the “minimal
burden” that this Court sanctioned in Jones. See
Rector, Wardens, Vestrymen of Christ Church v. Bishop
of Episcopal Diocese, 718 S.E.2d 237, 244 (Ga. 2011).
Here, there is no question that the Episcopal
Church met Jones’ instruction that a church could
“ensure, if [it] so desire[s], that the faction loyal to the
hierarchical church will retain the church property” if
that intent was “embodied in some legally cognizable
form.” 443 U.S. at 606. Nonetheless the Texas
Supreme Court is imposing a substantial,
unconstitutional burden by ignoring the fact that the
Episcopal Church amended its Church Constitution to
include the Dennis Canon with the clear intent to
create an express trust in the event a property dispute
arose. The Texas Supreme Court’s approach threatens
not only the Episcopal Church, but other churches,
including the Greek Orthodox Church, that have
arranged their affairs based on Jones’ promise that
only a “minimal” burden could be imposed yet still face
the possibility of losing church property to breakaway
factions because some technical state law requirement
was not met.

24
III.

THIS COURT SHOULD
GRANT
CERTIORARI TO HOLD THAT
NEUTRAL PRINCIPLES CANNOT BE
APPLIED RETROACTIVELY WITHOUT
VIOLATING THE FREE EXERCISE
CLAUSE OF THE FIRST AMENDMENT.

Unless this Court grants certiorari and holds that
retroactive application of the so-called neutralprinciples approach is unconstitutional when it was not
clearly enunciated in advance, churches will remain in
a precarious position in which the law can be turned
upside down without notice that their property rights
are no longer secured. Jones does not support and the
Free Exercise Clause cannot tolerate placing churches
in that position.
a. The Reasoning of Jones Makes Clear
That Retroactive Application of
Neutral
Principles
Is
Unconstitutional.
In Jones, this Court specifically noted that because
the Georgia Supreme Court “clearly enunciated its
intent to follow the neutral-principles analysis,” it did
not have to decide the constitutionality of retroactive
application of neutral principles. 443 U.S. at 606 n.4.
But Jones premised the constitutionality of the neutralprinciples approach on the fact that churches’ free
exercise rights would not be violated if only a
“minimal” burden was placed on the church to
effectuate its intentions prior to a property dispute
arising. 443 U.S. at 606. It follows that the Free
Exercise Clause cannot sanction a sudden deviation
from a deference approach in favor of a neutral-

25
principles approach where the parties arranged their
affairs under a deference regime.
b. The Texas Supreme Court Would
Require That Hierarchical Churches
Either Risk Losing Their Property or
Alter Their Internal Approach to
Ecclesiastical Governance.
Here, the longstanding unbroken Texas
jurisprudence over the last 100 years indicated that
Texas was a deference state. Brown v. Clark, 116 S.W.
360 (Tex. 1909); Green v. Westgate Apostolic Church,
808 S.W.2d 547, 551-552 (Tex. App.—Austin 1991).
Even though Texas never clearly enunciated its intent
to follow the neutral-principles approach until now, the
Episcopal Church risks losing $100 million worth of its
property because of the Texas Supreme Court’s aboutface. If the retroactive application of a neutralprinciples approach is permitted, hierarchical
churches, such as the Greek Orthodox Church, will face
two untenable options: risk losing valuable church
property in reliance on a state’s deference
jurisprudence or alter their internal affairs to meet the
substantial burden of strictly complying with multiple
states’ property law in the event of a state’s unforeseen
about-face. This Court should intervene to hold that
the First Amendment will not tolerate retroactive
application of “neutral principles” because such a
reversal in the law disregards the clear intent of intrachurch agreements made decades earlier regarding
valuable religious property.

26
CONCLUSION
For the foregoing reasons, the Greek Orthodox
Church respectfully requests that this Court grant
certiorari in this case.
Respectfully submitted,
JOHN ZAVITSANOS
Counsel of Record
AHMAD, ZAVITSANOS, ANAIPAKOS,
ALAVI & MENSING P.C.
1221 McKinney Street, Suite 2500
Houston, Texas 77010
(713) 600-4901
jzavitsanos@azalaw.com
Counsel for Amicus Curiae

